19-40371

\ ,r

. 'v
i .

T1

i
i

Mr. John Patrick Wallace
#1621931
CID Stiles Prison
3060 FM 3514
Beaumont, TX 77705-0000

i
I

i

i

«*

i

!

A

A
' .i

United States Court of Appeals
FIFTH CIRCUIT
OFFICE OF THE CLERK
LYLE W. CAYCE
CLERK

TEL. 504-310-7700
600 S. MAESTRI PLACE,
Suite 115
NEW ORLEANS, LA 70130

September 15, 2020
#1621931
Mr. John Patrick Wallace
CID Stiles Prison
3060 FM 3514
Beaumont, TX 77705-0000
No. 19-40371

John Wallace v. Lorie Davis, Director
USDC No. 4:17-CV-511

Dear Mr. Wallace,
We received your Motion for Production of Clerk's Records,
In
light - of the motion is unnecessary,
A copy of the motion for
reconsideration is $3.50, we are taking no action on this motion.
We must charge $.50 p*er page for a copy of the motion for
reconsideration. Upon receipt of the payment, the copies will be
forwarded.
^

Sincerely,
LYLE W. CAYCE

’

Clerk

0
By:
Monica R.r Washington, Deputy Clerk
504-310-7705

Case: 19-40371

Document: 00515354079

Page: 1

Date Filed: 03/20/2020

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 19-40371
A True Copy
Certified order issued Mar 20, 2020

JOHN PATRICK WALLACE

dwt* W. CttMjU
Clerk, U.S. Court of Appeals, Fifth Circuit

Petitioner-Appellant
y

LORIE DAVIS, DIRECTOR, TEXAS DEPARTMENT OF CRIMINAL
JUSTICE, CORRECTIONAL INSTITUTIONS DIVISION,
Respondent-Appellee

Appeal from the United States District Court
for the Eastern District of Texas

ORDER:
John Patrick Wallace, Texas prisoner # 1621931, was convicted of
burglary of a habitation and sentenced to serve 36 years of imprisonment.
Now, he moves this court for a certificate of appealability (COA) to appeal the
district court’s dismissal of his 28 U.S.C. § 2254 habeas corpus petition as
untimely. He argues that his untimely filing should be excused because he is
actually innocent.
A prisoner will receive a COA only if he “has made a substantial showing
of the denial of a constitutional right.” 28 U.S.C. § 2253(c)(2): see Miller-El v.
Cockrell, 537TT.S. 322. 336 (2003); Slack v. McDaniel, 529 U.S. 473. 484 (2000).
One “satisfies this standard by demonstrating that jurists of reason could
disagree with the district court’s resolution of his constitutional claims or that

Case: 19-40371

Document: 00515354079

Page: 2

Date Filed: 03/20/2020

. i

No. 19-40371
jurists could conclude the issues presented are adequate to deserve
encouragement to proceed further.” Miller-El, 537 U.S. at 327. Where the
district court has rejected the application on a procedural ground, the applicant
must also show “that jurists of reason would find it debatable whether the
district court was correct in its procedural ruling.” Slack, 529 U.S. at 484.
Because Wallace has not met these standards, his COA motion is DENIED.

ANDREW S. OLDHAM
UNITED STATES CIRCUIT JUDGE

2

Case 4:17-cv-00511-RAS-CAN Document 35 Filed 03/14/19 Page 1 of 1 PagelD #: 115

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF TEXAS
SHERMAN DIVISION

JOHN PATRICK WALLACE, #1621931
VS.
DIRECTOR, TDCJ-CID

§
§
§
§
§

CIVIL ACTION NO. 4:17cv511

ORDER OF DISMISSAL
The above-named and numbered case was referred to United States Magistrate Judge
Christine A. Nowak, who issued a Report and Recommendation recommending that the petition be
denied and dismissed with prejudice because it is time-barred. Petitioner filed objections.
Having made a de novo review, the court concludes that the findings and conclusions of the
Magistrate Judge are correct, and the objections of Petitioner are without merit. Petitioner fails to
show that the Report and Recommendation is in error or that he is entitled to equitable tolling.
Accordingly, the court hereby adopts the findings and conclusions of the Magistrate Judge as the
findings and conclusions of the court. It is
ORDERED that the petition for writ of habeas corpus is DENIED and Petitioner’s case is
DISMISSED with prejudice. A certificate of appealability is DENIED. It is further
ORDERED that all motions not previously ruled on are hereby DENIED.
SIGNED this the 14th day of March, 2019.

I
RICHARD A. SCHELL
UNITED STATES DISTRICT JUDGE

Case: 4:17cv511
\f

John Patrick Wallace 1621931
Allan B. Polunsky Unit
3872 FM 350
Livingston, TX 77351

Case: 4:17-cv-00511-ALM-CAN

Document #: 26-i

Date Filed: 08/30/2018

Page 1 of 7

(

. „• i

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF TEXAS
•
SHERMAN DIVISION

»

•ji

.

! '

JOHN PATRICK
WALLACE, #1621931
.*
'

4|1 L

§
§
§
" §
§
\

K*

VS.

>s

:

DIRECTOR.5, TDCJ-CID
r

.. v i

'

>
i ■

f

'

CIVIL ACTION NO. 4:17cv511
J

:
.r

t

V.

REPORT AND RECOMMENDATION
OF UNITED STATES MAGISTRATE JUDGE
Pro se Petitioner John Patrick Wallace filed the above-styled and numbered petition fof a writ
•'

v ■ :

,

‘r

•

.

.

of habeas corpus pursuant to 28 U.S.C. § 2254. The petition was referred to the undersigned United
.1

i

States Magistrate Judge for findings of fact, conclusions of law, and recommendations for the
/

disposition of the case pursuant to 28 U.S.C. § 636 and the Amended Order for the Adoption of
..i

•»,:3

t ,

l

Local Rules for the Assignment of Duties to the United States Magistrate Judge.
<
!■

k

*

' 7

V'

f

BACKGROUND
\

'

l

Petitioner is challenging his Collin County conviction for burglary of a habitation, Cause No.

I .

‘ I

1

,

V

.

.

,

’ V

.

I

f>

•.

•

•

.

. '

r

291-82795-07. On September 17,2008, he was sentenced to thirty-six years’ confinement. The Fifth
s

i .

Court of Appeals affirmed his conviction on April 30,2010, Cause No. 05-08-01369-CR. Petitioner
I '|

V

:

r

i

*- (

t

*'A

■

V

filed the present petition on July 13,2017. He argues that he is entitled to federal habeas corpus relief
K Cti w*.
.
i
r
l
because his due process rights were violated. The Director was not ordered to file a response.
r >.

ANTITERRORISM AND EFFECTIVE DEATH PENALTY ACT OF 1996
On April 24,1996, the Antiterrorism and Effective Death Penalty Act of 1996 (AEDPA) was
enacted. The law made several changes to the federal habeas corpus statutes, including the addition
ofa one-year statute of limitations. 28U.S.C. § 2244(d)(1). The AEDPA provides that the one-year
1-

i

Case:.4:17-qv-00511-ALM-CAN

Document #: 26-1

Date Filed: 08/30/2018

Page 3 of 7

The United States Supreme Court confirmed that the AEDPA statute of limitation is not a
jurisdictional bar, and it is subject to equitable tolling in Holland v. Florida, 560 U.S. 631 (2010).
“A habeas petitioner is entitled to equitable tolling only if he shows ‘(1) that he has been pursuing
his rights diligently, and (2) that some extraordinary circumstance stood in his way’ and prevented
timely filing.” Mathisv. Thaler, 616 F.3d 461, 474 (5th Cir. 2010) (quoting Holland, 130S.Ct.at
2562). “Courts must consider the individual facts and circumstances of each case in determining
whether equitable tolling is appropriate.” Alexander v. Cockrell, 294 F.3d 626,629 (5th Cir. 2002).
The petitioner bears the burden of proving that he is entitled to equitable tolling. Phillips v.
Donnelly, 216 F.3d 508, 511 (5th Cir. 2000).
The Fifth Circuit has held that the district court has the power to equitably toll the limitations
period in “extraordinary circumstances.” Cantu-Tzin v. Johnson, 162 F.3d 295,299 (5th Cir.1998).
To qualify for such equitable tolling, the petitioner must present “rare and exceptional
circumstances.” Davis v. Johnson, 158 F.3d 806, 810-11 (5th Cir.1998). In making this
determination, it should be noted that the Fifth Circuit has expressly held that proceeding pro se,
illiteracy, deafness, lack of legal training, unfamiliarity with the legal process, and claims of actual
innocence are insufficient reasons to equitably toll the statute of limitations. Felder v. Johnson, 204
F.3d 168, 173 (5th Cir.2000).
As a general rule, equitable tolling has historically been limited to situations where the
petitioner “has actively pursued his judicial remedies by filing a defective proceeding during the
statutory period, or where the [petitioner] has been induced or tricked by his adversary's misconduct
into allowing the filing deadline to pass.” Irwin v. Dep’t of Veterans Affairs, 498 U.S. 89, 96
(1990). Furthermore, equitable tolling cannot be used to thwart the intent of Congress in enacting

•v

3

Case:, 4:17-qv-00511-ALM-CAN

Document #: 26-1

Date Filed: 08/30/2018

Page 4 of 7

the limitations period. See Davis, 158 F.3d at 811 (noting that “rare and exceptional circumstances”
are required). At the same time, the Court is aware that dismissal of a first federal habeas petition is
a “particularly serious matter, for that dismissal denies the petitioner the protections of the Great Writ
entirely, risking injury to an important interest in human liberty.” Loncharv. Thomas, 517U.S.314,
324 (1996).
Petitioner filed a response to this Court’s order as to the timeliness of his petition. In his
response, Petitioner concedes his petition is not timely, but claims that he is actually innocent. The
Supreme Court, in McQuiggin v. Perkins, 133 S. Ct. 1924 (2013), held that actual innocence, if
proved, serves as a means of avoiding the AEDPA one-year statute of limitations. But the Court
cautioned, “tenable actual-innocence gateway pleas are rare,” and for a petitioner to meet the
threshold requirement, he must persuade the district court, “in light of the new evidence, no juror,
acting reasonably, would have voted to find him guilty beyond a reasonable doubt. ” Id.

The

actual-innocence gateway should open only when a petitioner presents new evidence of innocence
so strong that a court cannot have confidence in the outcome of the trial unless the court is also
satisfied the trial was free of nonharmless constitutional error. Id. at 1936.
In the present case, the Court first notes Petitioner fails to show newly discovered evidence.
Nothing presented in Petitioner’s federal petition is newly discovered. Second, Petitioner’s actual
innocence claim is actually a sufficiency of the evidence argument. In the context of actual
innocence, Petitioner must establish factual innocence - he must show he did not commit the crime.
Bousley v. United States, 523 U.S. 614, 623 (1998); Johnson v. Hargett, 978 F.2d 855, 859-60
(5th Cir. 1992). Petitioner wholly fails to show factual innocence, as required. Id.
Finally, Petitioner also fails to establish he. exercised reasonable diligence. While the

4

Case:t4:17-cv-00511-ALM-CAN

Document #: 26-1

Date Filed: 08/30/2018

Page 5 of 7

Supreme Court rejected the theory that petitioners who assert convincing actual-innocence claims
must also prove reasonable diligence, it held that timing is a relevant factor in evaluating the
reliability of petitioner’s proof of innocence. Perkins, 133 S. Ct. at 1935 (emphasis added).
Petitioner fails to assert a convincing actual-innocence claim, and also fails to show he exercised
reasonable diligence. Id. at 1928.
In sum, Petitioner filed his § 2254 petition six years, one month, and thirteen days beyond
the AEDPA limitations deadline. He fails to show he is actually innocent or that “rare and
extraordinary circumstances” prevented him from timely filing. Perkins, 133 S. Ct. at 1928; Davis,
158 F.3d at 810-11. Petitioner also fails to show he was reasonably diligent. Perkins, 133 S. Ct.
at 1928. Consequently, the § 2254 petition should be denied and dismissed as time-barred.
CERTIFICATE OF APPEALABILITY
An appeal may not be taken to the court of appeals from a final order in a proceeding under
§ 2254 “unless a circuit justice or judge issues a certificate of appealability.” 28 U.S.C. §
2253(c)(1)(B).

Although Petitioner has not yet filed a notice of appeal, it is respectfully

recommended that this Court, nonetheless, address whether he would be entitled to a certificate of
appealability. See Alexander v. Johnson, 211 F.3d 895,898 (5th Cir. 2000) (A district court may sua
sponte rule on a certificate of appealability because “the district court that denies a petitioner relief
is in the best position to determine whether the petitioner has made a substantial showing of a denial
of a constitutional right on the issues before the court. Further briefing and argument on the very
issues the court has just ruled on would be repetitious.”).
A certificate of appealability may issue only if a petitioner has made a substantial showing
of the denial of a constitutional right. 28 U.S.C. § 2253(c)(2). The Supreme Court fully explained

5

Case:44:17-cv-00511-ALM-CAN

Document#: 26-1

Date Filed: 08/30/2018

Page 6 of 7

the requirement associated with a “substantial showing of the denial of a constitutional right” in
Slack v. McDaniel, 529 U.S. 473,484 (2000). In cases where a district court rejected a petitioner’s
constitutional claims on the merits, “the petitioner must demonstrate that reasonable jurists would
find the district court’s assessment of the constitutional claims debatable or wrong.” Id.; Henry v.
Cockrell, 327 F.3d 429, 431 (5th Cir. 2003). “When a district court denies a habeas petition on
procedural grounds without reaching the petitioner’s underlying constitutional claim, a COA should
issue when the petitioner shows, at least, that jurists of reason would find it debatable wheth er th e
petition states a valid claim of the denial of a constitutional right and that jurists of reason would find
it debatable whether the district court was correct in its procedural ruling.” Id.
In this case, it is respectfully recommended that reasonable jurists could not debate the denial
of Petitioner’s § 2254 motion on substantive or procedural grounds, nor find that the issues presented
are adequate to deserve encouragement to proceed. See Miller-El v. Cockrell, 537 U.S. 322,336-37
(2003) (citing Slack, 529 U.S. at 484). Accordingly, it is respectfully recommended that the court
. find that Petitioner is not entitled to a certificate of appealability.
RECOMMENDATION
It is recommended Petitioner’s motion for relief under 28 U.S.C. § 2254 be denied and the
case dismissed with prejudice. It is further recommended that a certificate of appealability be denied.
Within fourteen (14) days after service of the magistrate judge’s report, any party must serve
and file specific written objections to the findings and recommendations of the magistrate judge.
28 U.S.C. § 636(b)(l)( C). To be specific, an objection must identify the specific finding or
recommendation to which objection is made, state the basis for the objection, and specify the place
in the magistrate judge’s report and recommendation where the disputed determination is found. An

6

Case:t. 4:17-cv-00511-ALM-CAN
-vr

Document#: 26-1

Date Filed: 08/30/2018

Page 7 of 7

objection that merely incorporates by reference or refers to the briefing before the magistrate judge
is not specific.
Failure to file specific, written objections will bar the party from appealing the unobjected-to
factual findings and legal conclusions of the magistrate judge that are accepted by the district court,
except upon grounds of plain error, provided that the party has been served with notice that such
consequences will result from a failure to object See Douglass v. United Servs. Auto. Ass'n, 79 F.3d
1415,1430(5thCir. 1996) yen banc), superceded by statute on other grounds, 28 U.S.C. § 636(b)(1)
(extending the time to file objections from ten (10) to fourteen (14) days).
SIGNED this 30th day of August, 2018.

AM*—

Christine A. Nowak
UNITED STATES MAGISTRATE JUDGE

7

J\ Q PtoJ' X

o

•

a

AFFIRMED; Opinion Filed April 30, 2010.

RECEIVED
MAY 0 6 P.ftC
BY:

In The

Court of Appeals
iFtftlf district of alexas at Balias
No. 05-08-01369-CR
JOHN PATRICK WALLACE, Appellant
V.
THE STATE OF TEXAS, Appellee
On Appeal from the 219th Judicial District Court
Collin County, Texas
Trial Court Cause No. 219-82795-07

OPINION
Before Justices Richter, Lang-Miers, and Myers
Opinion By Justice Lang-Miers
A jury convicted John Patrick Wallace of burglary of a habitation. After appellant pleaded
true to two prior burglary of a habitation convictions, the jury assessed punishment at thirty-six
years’ imprisonment. In two issues, appellant contends the evidence is legally and factually
insufficient to support the conviction. We affirm.
Background
On September 16, 2007, Dana Starr, the complainant, picked up her children from Sunday
school and returned home at 11:30 a.m. When she drove into her garage, which is attached to her
house, she left the door up and went into the house. Starr testified her backyard is surrounded by
a brick wall, and the driveway has an iron gate across it to block entry from the alley. The gate

•'«

opens with a remote control device. Starr testified she was inside the house for about forty minutes
then she returned to her car. She immediately noticed her wallet, which she kept in the console for
convenience, was missing. Starr went back in the house to look for the wallet, then returned to the
garage after a few minutes. She saw that her husband’s vehicle had its doors ajar, and a radar
detector was missing from the vehicle. Starr immediately called the credit card company. She
learned one of her credit cards had already been used twice, at a gas station and at a Walgreens.
Starr called the police. A Dallas police officer came to Starr’s home. A short time later, a Plano
police officer telephoned Starr and said he had her wallet. Starr went to the Plano jail and retrieved
her wallet at 2:00 p.m. Cash and one credit card were missing from the wallet. Starr testified she
did not give anyone permission to enter her garage and take property from her vehicle, and that
whoever stole her property would either have had to jump over the brick wall or open the iron gate
to gain entry into the yard and garage. At trial, Starr identified a credit card issued in her name and
a radar detector as property belonging to her and her husband.
On September 16, 2007, Plano police officer Joel Scott made a traffic stop on a vehicle
driven by appellant for having no front license plate and making an unauthorized U-turn. Appellant
was in the driver’s seat, and a man later identified as Marsalis Hutchinson was in the front passenger
seat. Scott testified that when he first noticed the vehicle, it was approximately two blocks from a
Walgreens in the 4000 block of Preston Road. After Scott activated his flashing lights to pull over
the vehicle, appellant slowed down but did not stop immediately.

Scott saw appellant and

Hutchinson “fumbling with something.” Appellant drove “a quater mile” before he stopped even
though Scott had activated his flashing lights. When Scott asked appellant for identification,
appellant gave Scott an Oklahoma driver’s license in the name of “John Gatharie.” Scott testified
he could not verify the license because his computer was not working properly at the time. He asked

-2-

appellant for paperwork that showed he owned the vehicle. Appellant reached into the glove
compartment and grabbed a receipt from a motor company in the name of “John Wallace.” When
Scott asked appellant who John Wallace was, appellant said he was both John Wallace and John
Gatharie because “his mother was a Wallace and his father was a Gatharie.”
Scott testified he became suspicious of appellant’s nervous behavior and vague answers and
called for a backup officer. When the second officer arrived, Scott got appellant out of the vehicle
and arrested him for traffic violations, including no driver’s license, no insurance, and no front
license plate. When he searched appellant, Scott found $494 in cash and various cards in appellant’s
pants pockets, including a credit card issued to Dana Starr, five $100-American Express gift cards;
two $50-American Express gift cards; a $50-Marriott gift card, a $100-Marriott travel card; a $25Cold Stone Creamery gift card, and several gift cards from stores and restaurants without a
designated amount. Scott asked appellant who Dana Starr was; appellant said he did not know.
Scott then searched appellant’s vehicle and found the following items: identification with appellant’s
name and picture on it, a woman’s wallet under the driver’s seat that contained Starr’s identification
and several credit cards, a pair of black gloves between the driver’s seat and center console, a new
radar detector, and two credit union checks with an address printed on them that did not match
appellant’s address.
Scott testified he called the police dispatcher to obtain a telephone number for Starr, He
learned that a Dallas police officer was headed to the Starr residence to take a burglary report. Scott
telephoned Starr and learned one of her credit cards had been used at a nearby Walgreens.* Scott sent *
the backup officer to Walgreens to look at possible surveillance footage of the transaction. The
officer obtained a surveillance videotape that showed a person who resembled appellant purchasing
something at a front register. The purchase occurred at 12:01 p.m. on September 16, 2007. Scott

-3-

testified the clothing of the person using the credit card at the Walgreens matched the clothing
appellant had on at the scene of the traffic stop.
Plano police officer Steven Sanders testified he was the second officer to arrive at the traffic
stop. He briefly talked with Hutchinson, the front seat passenger, while Scott made appellant get
out of the vehicle and then arrested him. After a few minutes, Sanders went to a nearby Walgreens
to investigate whether appellant was the same person who used Starr’s credit card there. Sanders
talked with the store manager and viewed surveillance videotape of transactions at the front cash
registers. Sanders testified that although he could not see the person’s face on the videotape, he saw
a man at the register whose clothing and distinctive hat matched the clothing and hat appellant was
wearing at the time of the traffic stop. The videotape was admitted into evidence and played to the
jury as Sanders pointed out that appellant stood at the register and used Starr’s credit card at 12:01
p.m.1 Appellant did not testify or present any evidence during the guilt/innocence phase of the trial.
Discussion
In tvfo issues, appellant contends the evidence is legally and factually insufficient because
there is no eyewitness testimony, no eyewitness identification, and a useless videotape because you
cannot see the face of the person who used Starr’s credit card. Appellant asserts there is no evidence
he was physically present at the time the offense was committed or that he and Hutchinson were
acting together to commit the offense. In reviewing a challenge to the legal sufficiency of the
evidence, we examine the evidence to determine whether any rational trier of fact could have found
the essential elements of the offense beyond a reasonable doubt. Vodochodsky v. State, 158 S. W.3d
502, 509 (Tex. Crim. App. 2005). We review all the evidence in the light most favorable to the

The Walgreens surveillance videotape is not a part of the appellate record. However, the jury heard testimony from both Scott and Sanders
that the person on the videotape using Starr’s credit card had on the same clothing and distinctive hat as appellant wore at the traffic stop the same
day of the burglary.

_4_

verdict, and assume the trier of fact resolved conflicts in the testimony, weighed the evidence, and
drew reasonable inferences in a manner that supports the verdict. See Rollerson v. State, 227 S. W.3d
718, 724 (Tex. Crim. App. 2007).
In a factual sufficiency review, we consider all of the evidence in a neutral light and
determine whether (1) the evidence supporting the conviction is too weak to support the fact-finder ’ s
verdict or, (2) considering conflicting evidence, the fact-finder’s verdict is against the great weight
and preponderance of the evidence. Laster v. State, 275 S.W.3d 512, 518 (Tex. Crim. App. 2009).
We may only find the evidence factually insufficient when necessary to prevent manifest injustice.
Id. Unless the record clearly reveals a different result is appropriate, we must defer to the fact­
finder’s determination concerning what weight to give to contradictory testimony. Lancon v. State,
253 S.W.3d 699, 705 (Tex. Crim. App. 2008).
To obtain a conviction, the State was required to prove beyond a reasonable doubt that
appellant intentionally and knowingly, without the effective consent of Dana Starr, the owner,
entered a habitation with the intent to commit theft, attempted to commit theft, or committed theft.
See Tex. Penal Code Ann. § 30.02(a) (Vernon 2003). The jury was instructed it could find
appellant guilty as a principal actor to the offense, guilty as a party to the offense, or not guilty. See
Tex. Penal Code Ann. § 7.02(a)(2) (Vernon 2003). A person is criminally responsible as a party
if the offense is committed by his own conduct, by the conduct of another for which he is criminally
responsible, or by both. See id. § 7.01(a). A person is criminally responsible for an offense
committed by the conduct of another if, acting with intent to promote or assist the commission of
the offense, he aids the other person in committing the offense. See id. § 7.02(a)(2). In determining
whether the accused is guilty as a party, the fact finder may consider events occurring before, during,
and after commission of the offense. Michel v. State, 834 S.W.2d 64, 67 (Tex. App.-Dallas 1992,

-5-

r
no pet.).
The jury heard testimony that there was less than forty minutes between the time Starr
discovered her wallet missing and when officers discovered Starr’s wallet and credit cards in
appellant’s possession. Starr’s wallet was found under the driver’s seat where appellant had been
sitting, and her credit card was found in appellant’s pocket. Appellant offered no explanation to the
officers as to why he possessed Starr’s stolen property. Unexplained possession ofproperty recently
stolen in a burglary permits an inference that an accused is the person who committed the burglary.
See Poncio v. State, 185 S.W.3d 904, 905 (Tex. Crim. App. 2006). Moreover, the jury was free to
accept or reject any and all of the evidence presented by either side. See Tex. Code Crim. Proc.
Ann. art. 38.04 (Vernon 1979); Wesbrook v. State, 29 S.W.3d 103, 111 (Tex. Crim. App. 2000).
The jury could have reasonably concluded that appellant was the person who entered Starr’s
habitation without her consent and stole her property.
Viewed under the proper standards, we conclude the unexplained possession of property
recently stolen in a burglary in conjunction with the fact that appellant was wearing the same
clothing as the person who was captured on store surveillance videotape using Starr’s credit card
are sufficient to support his burglary of a habitation conviction. See Poncio, 185 S.W.3d at 905.
We resolve appellant’s two issues against him.
We affirm the trial court’s judgment.

0

//
/

-2

y

\

ujMjjLy

ELIZABETH LANCf MIERS
JUSTICE
Do Not Publish
Tex. R. App. P. 47
081369F.U05

-6-

Court of Appeals
iffiftlj district of ©exas at Hallas
JUDGMENT
JOHN PATRICK WALLACE, Appellant
No. 05-08-01369-CR

V.

THE STATE OF TEXAS, Appellee

Appeal from the 219th Judicial District
Court of Collin County, Texas. (Tr.Ct.No.
219-82795-07).
Opinion delivered by Justice Lang-Miers,
Justices Richter and Myers participating.

Based on the Court’s opinion of this date, the judgment of the trial court is AFFIRMED.

Judgment entered April 30, 2010.

ELIZABETH LANG-lMIElVs
{/
JUSTICE

